  Office of Inspector General




INSPECTOR GENERAL REVIEW OF FISCAL
 YEAR 2012 DRUG CONTROL FUNDS AND
 PERFORMANCE SUMMARY REPORTING
       Federal Aviation Administration

         Report Number: FI-2013-038
        Date Issued: February 1, 2013
U.S. Department of                                            Office of Inspector General
Transportation                                                   Washington, DC 20590
Office of the Secretary
of Transportation

February 1, 2013

Ms. U. Jane Sanville
Acting Associate Director, Office of Performance and Budget
Office of National Drug Control Policy
Washington, DC 20503

Dear Ms. Sanville:

This report presents the results of our independent review of the U.S. Department
of Transportation, Federal Aviation Administration’s (FAA) fiscal year 2012 Drug
Control Obligation Summary and Performance Summary reports to the Office of
National Drug Control Policy (ONDCP). Both reports are dated January 13, 2013.
The reports and our review are required by 21 U.S.C. §1704 (d) and ONDCP’s
Circular, Annual Accounting and Authentication of Drug Control Funds and
Related Performance, of May 2007 (Circular).

The Circular states that when drug-related obligations are less than $50 million
and a detailed accounting would constitute an unreasonable burden, agencies are
permitted to submit an alternative report. Because FAA’s fiscal year 2012 drug-
related obligations were less than $50 million, FAA submitted an alternative
report. In our attestation review, we (1) assessed whether providing a detailed
accounting of funds expended on National Drug Control Program activities would
constitute an unreasonable burden, and (2) reviewed FAA’s report and related
management assertions to determine the reliability of those assertions in
compliance with the Circular, in all material respects. We conducted our review in
accordance with generally accepted Government auditing standards for attestation
engagements. However, a review is substantially more limited in scope than an
examination, which expresses an opinion on the accuracy of FAA’s Drug Control
Obligation Summary and Performance Summary reports. Because we conducted
an attestation review, we do not express such an opinion.

Drug Control Obligations Summary

We performed review procedures on the accompanying report (Enclosure 1),
FAA’s fiscal year 2012 Drug Control Obligation Summary, based on criteria
specified in the Circular. Our work was limited to inquiries and analytical


Report Number FI -2013-038
                                                                                 2


procedures appropriate for an attestation review. Specifically, we tested selected
accounting internal controls to ensure drug control funds were properly identified
in the accounting system. We traced $17 million of FAA’s reported $26.3 million
in drug control obligations to the Department’s accounting system. Because FAA
is reporting a total amount in drug control obligations—$26.3 million—below the
Circular’s $50 million threshold for full reporting, we believe that full reporting
compliance would constitute an unreasonable reporting burden.

Performance Reporting Summary and Assertions

FAA’s fiscal year 2012 performance targets were to (1) initiate regulatory
investigations on 95 percent of all pilots involved in the sale or distribution of
illegal drugs within 30 days of knowledge, a conviction, or notification by law
enforcement; (2) ensure the aviation industry conducts random drug and alcohol
testing of safety sensitive employees with results not exceeding one percent
positives for drugs and one-half percent positives for alcohol; and, (3) conduct
1,650 FAA drug and alcohol inspections of the aviation industry to ensure
compliance with Federal regulations. FAA indicated that it met all three
performance targets.

We performed review procedures on the accompanying report (Enclosure 2),
FAA’s fiscal year 2012 Performance Summary Report, and management’s
assertions. Our review processes were limited to inquiries and analytical
procedures appropriate for an attestation review based upon the criteria specified
in the Circular. Specifically, we reviewed FAA’s internal controls for performance
measures to gain an understanding of how the measures were developed.

During our review, no information came to our attention that the accompanying
FAA fiscal year 2012 Drug Control Obligation Summary and Performance
Summary reports were not presented in conformity with the ONDCP Circular.

Sincerely,



Louis C. King
Assistant Inspector General for Financial and
 Information Technology Audits

Enclosure(s)

cc: DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100


Report Number FI-2013-038
                            Assistant Administrator for Financial Services and   800 Independence Ave. SW
U.S. Department             Chief Financial Officer                              Washington, D.C. 20591
of Transportation
Federal Aviation
Administration

                                                                                 January 13, 2013




Ms. U. Jane Sanville
Acting Associate Director for Performance and Budget
Office of the National Drug Control Policy
Washington, DC 20503

Dear Ms. Sanville:

In accordance with the Office of National Drug Control Policy Circular: Drug Control
Accounting issued May 1, 2007, the Federal Aviation Administration's (FAA) Fiscal Year
2012 Drug Control Obligation Summary is enclosed. FAA's obligations for drug-related
activities fall below the reporting threshold of $50 million; therefore, only a limited report is
required to satisfy the statutory requirement.

FAA's point of contact for this report is Dedra Goodman. She can be reached at
(202) 267-3631, if further assistance is required.

Sincerely yours,




Mark House
Chief Financial Officer

Enclosure
                                             Obligations Summary
                                       DEPARTMENT OF TRANSPORTATION
                                      FEDERAL AVIATION ADMINISTRATION
                                               ($ in thousands)

RESOURCE SUMMARY

                                                                                  FY 2012
                                                                                 Obligations
Drug Resources by Budget Decision Unit and Function:

    Decision Unit: Air Traffic Organization                                  $           9,240
    Subtotal, Air Traffic Organization                                                   9,240


    Decision Unit: Aviation Safety/Aerospace Medicine
       Prevention                                                            $          15,213
    Subtotal, Aviation Safety/Aerospace Medicine                                        15,213


    Decision Unit: Security and Hazardous Material Safety
       Intelligence Interdiction & State/Local Assistance                    $           1,801
    Subtotal, Security and Hazardous Material Safety                                     1,801

    Total Funding                                                            $          26,254

Drug Resources Personnel Summary
    Total FTEs (direct only)
       Air Traffic Organization                                                                59
           Investigations: Industry Drug Abatement                      50
           Prevention: Industry Drug Abatement                          20
           Prevention: Internal Substance Abuse Program                 17
       Subtotal, Aviation Safety/Aerospace Medicine                                         87
       Security & Hazardous Materials Safety                                                16
    Total FTEs                                                                             162
                                Assistant Administrator for Financial Services and   800 Independence Ave. SW
                                Chief Financial Officer                              Washington, D.C. 20591




Ms. U. Jane Sanville
Acting Associate Director for Performance and
Budget Office of the National Drug Control Policy
Washington, DC 20503

Dear Ms. Sanville:

In accordance with the Office of National Drug Control Policy Circular: Drug Control
Accounting issued May 1, 2007, the Federal Aviation Administration's (FAA) Fiscal Year
2012 Performance Summary Report is enclosed. As specified by the Circular and after
conversations with ONDCP personnel, the Agency selected two performance measures for
Aviation Safety (AVS) for FY 2011 and one performance measure for Security and
Hazardous Materials (ASH) for FY 2012 to assess its success in reducing the prevalence of
drug and alcohol-impaired personnel who perform sensitive duties within the aviation
industry and in initiating regulatory action against airmen involved in the sale or distribution
of illegal drugs. Additional metrics are included in the body of the enclosures for FYs 2008
through 2011. These performance measures reflect a critical milestone in the goal to promote
the safety and security of the National Air Space (NAS) and the flying public. These
performance measures are:

    1. Initiate regulatory investigations on 95% of all airmen involved in the sale or
       distribution of illegal drugs within 30 days of knowledge or a conviction or
       notification by law enforcement (ASH).
    2. Ensure the aviation industry conducts random drug and alcohol testing of safety-
       sensitive employees with results not exceeding one percent (1%) positives for drugs
       and one-half percent (0.5%) positives for alcohol (AVS),
    3. Conduct 1,650 FAA drug and alcohol inspections of the aviation industry to ensure
       compliance with 14 C.F.R part 123 and 49 C.F.R. part 40.

Assertions
   1. Performance reporting system is appropriate and applied: Performance
       information for the first measure relies on official Agency data residing in the
       Investigations Tracking System (ITS) and Enforcement Information System (EIS)1.
       Data resident in ITS/EIS includes: the date of the offense, when first known to FAA,
       start date of the action, source of the information, and final sanction.

        For measures two and three, the information relies on surveys conducted by the
        Agency of all part 121 operators and all other employers with 50 or more safety-sensitive
        employees. The latter provide to FAA annual report of their testing results. The
        remaining employers with 49 or fewer safety-sensitive employees are randomly chosen to

1
  ITS and EIS are FAA's system for tracking investigations and information about enforcement actions for
statutory or regulatory violations.
                                                                                               2


       submit an annual report.
       No performance measure was reported for one of the three Lines of Business because
       its work structure does not lend itself to the development and tracking of such
       metrics and is not cost-effective to the government to do so. Consequently, FAA will
       work with ONDCP to develop a measure beneficial and cost effective to both
       organizations. Additional information can be found in enclosures.

   2. 	 Explanations for not meeting performance targets are reasonable: Targets met.

   3. 	 Methodology to establish performance targets is reasonable and applied: Data
        collection for the first measure is based on official FAA databases. For the last two
        measures, the Department of Transportation (DOT) requires the Agency to determine
        these measures using the Drug and Alcohol Management Information System
        (DAMIS) reporting. Due to the reporting methodology, this sampling ofDAMIS
        reporting is always one calendar year behind. Additional information can be found in the
        enclosed Summary Reports.

   4. 	 Adequate performance measures exist for aU significant drug control activities:
        The measures used to describe the Agency's performance adequately reflect key steps
        toward the prevention and detection of drug related activities in the NAS. These
        measures provide a meaningful assessment of progress toward the development of
        safe and reliable airspace.


FAA's points of contact for this report are as follows:

             ASH: Elaine K. Stone-Arthur, (202) 385-4890

             AVS: Rafael Ramos (202) 267-8346

             ATO: Ernest Barber, (202) 385-8499



Sincerely,




Mark House,
ChiefFinancial Officer

Enclosures
                       Federal Aviation Administration
               Industry Drug and Alcohol Testing Program
                         Performance Summary Report
                                   Fiscal Year 2012


(1) Performance Measures

The Federal Aviation Administration (FAA) contributes to the National Drug Control
Strategy by reducing the prevalence of drug and alcohol-impaired personnel from
performing safety-sensitive duties in the aviation industry.

The Department of Transportation (DOT) requires the Agency to determine these measures
using the Drug and Alcohol Management Information System (DAMIS) reporting. Each
year, the FAA conducts a survey of every aviation employer that employs 50 or more safety-
sensitive employees, and a random selection of employers that employ 49 or fewer safety-
sensitive employees. These employers are notified to report their data showing the number
of drug and alcohol tests conducted, and the number of positive test results, along with other
miscellaneous information. Due to the reporting methodology, this sampling of DAMIS
reporting is always one calendar year behind. For example, employers were required to
report all testing they accomplished for calendar year 2011 by March 15, 2012. In an effort
to ensure the most accurate data, the DOT allows for late submissions until October 12,
2012, at which time no more entries were allowed. The most current reported data available
is for calendar year 2011.

(2) Prior Years’ Performance Targets and Results

The prior year targets for 2008, 2009 and 2010 were fully achieved. Annual targets are
determined by the DOT and require the positive test results for drugs to be less than 1.0%
and the percentage of positive alcohol tests to be less than 0.5%. The results for the prior
years are as follows:

  Calendar Year      Total Drug         Percentage of      Total Alcohol      Percentage of
                    Tests Reported      Positive Drug      Tests Reported       Positive
                                            Tests                             Alcohol Tests
      2008              199,510            0.588%              53,939            0.123%
      2009              164,356            0.534%              51,480            0.088%
      2010              179,894            0.503%              50,580             0.11%
                                                                                                   2



(3) Current Performance Targets

Because the methodology requires test reporting to be one calendar year behind, the current
year is considered calendar year 2011. For this calendar year, the total drug tests reported
were 191,011, resulting in a 0.462% positive drug tests. The total alcohol tests reported
were 50,324, resulting in a 0.097% positive alcohol tests.

(4) Quality of Performance Data

As mentioned previously, the FAA does not require all regulated employers to report their
MIS data. During our compliance inspections of covered employers, our inspectors verify
the data submitted to DAMIS to ensure its integrity. In FY 2012, the Drug Abatement
Division conducted 1,850 inspections and verified each DAMIS report.

The following chart indicates the number of employers that reported their data:

   Calendar Year             Approximate       Number of        Approximate Percentage
                            Number of Total    Reporting        of Reporting Employers
                              Regulated        Regulated          Vs. Total Employers
                              Employers        Employers
         2008                 Unknown            2,340                  Unknown
         2009                   7,250            2,694                    37%
         2010                   7,270            3,240                    44%
         2011                   7,200            3,137                    43%




U.S. Department of Transportation                                     Federal Aviation Administration
                            Federal Aviation Administration
                          Law Enforcement Assistance Program
                             Performance Summary Report
                                    Fiscal Year 2012
(1) Performance Measure

The Federal Aviation Administration’s (FAA) Law Enforcement Assistance Program (LEAP)
contributes to the National Drug Control Strategy by reducing access to the National Airspace
System of Airman known to the FAA to be involved in the sale or distribution of illegal drugs.
The FAA will use one performance measure to assess the effectiveness of the program.

The LEAP Special Agents provide extensive technical and administrative assistance, on a timely
and continuous basis, to all Federal, State, local, tribal, territorial, and international law
enforcement agencies (LEAs) engaged in drug interdiction efforts. They have access to FAA
data, not otherwise available to other agencies, that is critical to the development of
investigations on airman involved in illegal drug trafficking. The information FAA provides to
LEAs assists them in the arrest and conviction of airman and/or the seizure of aircraft.

Due to the joint work with LEAs, FAA becomes aware of investigations and information that
enable/support initiation of FAA regulatory enforcement investigations on airman/aircraft
suspected of drug trafficking; in many cases, these investigations result in the revocation of
airman certificates thus contributing to the safety and security of the NAS.

The performance measure selected reflects a critical milestone in the goal to promote the safety
and security of the NAS and the flying public by restricting access of airmen who have violated
statutory and regulatory requirements for maintaining an airman certificate. The performance
measure being used is a valid and reliable method for capturing the efforts put forth in this area.

The ASH LEAP program will use the following measure to assess progress of the LEAP
Program.

      Initiate regulatory investigations on 95% of all airmen involved in the sale or distribution
       of illegal drugs within 30 days of knowledge of a conviction or notification by law
       enforcement.

(2) Prior Year Performance Target and Results

The performance target for FY2011 was fully achieved.
FAA LEAP Special Agents initiated 33 of 34 regulatory
investigations or 97% of airman brought to the attention of
ASH within 10 days.
FAA took regulatory action against 63%
of the airman investigated, impacting their
ability to legally access the NAS. That
regulatory action is depicted in the chart,
and also resulted in significant action1
taken against airman 40% of the time.


(3) Current Performance Target



Selected Measures of Performance                  FY 2012 Target               FY 2012 Achieved
Initiate regulatory investigations on
95% of all airmen involved in the sale            95%                          100%
or distribution of illegal drugs within
30 days of knowledge of a conviction
or notification by law enforcement


FAA Special Agents initiated 18
regulatory investigations or 100%
of airman brought to the attention
of ASH within 30 days. In FY12
FAA also took regulatory actions
against 56 or 88% of the airman
arrested for drug related offenses,
thus impacting their ability to
legally access the NAS. Those
regulatory actions are depicted in
the chart, and also resulted in
significant action2 taken against
airman 39% of the time.


(4) Quality of Performance Data

Performance information for the measure relies on official agency data residing in the
Investigations Tracking System (ITS) and Enforcement Information System (EIS).3 Data
resident in ITS/EIS includes: the date of the offense, when first known to FAA, start date of the
action, source of the information, and final sanction.


1
  Significant Action is defined as a fine or revocation/suspension of the airman certificate.
2
  Significant Action is defined as revocation/suspension of the airman certificate.
3
  ITS and EIS are FAA’s system for tracking investigations and information about enforcement actions for statutory
or regulatory violations.
                                 ATO Drug-Related Activities

1. The Air Traffic Organization (ATO), as the FAA's operations component, is the country's
   primary air navigation services provider and responsible for the operational control of
   nation's airspace. In addition to supporting the safety and efficiency of aviation for air
   commerce, ATO collaborates with interagency partners to support national defense,
   homeland security, and law enforcement missions. This interagency cooperation includes air
   traffic management (ATM) support to the North American Aerospace Defense Command
   (NORAD), Customs and Border Protection (CBP), and other partners carrying out drug
   control missions in the National Airspace System (NAS).

2. ATM related support to drug control missions includes: a) standard air traffic control (ATC)
   services for government aircraft on missions; b) special handling of those same aircraft,
   specifically including flights performing surveillance; c) facilitation, including ATC tracking
   of suspect flights, of intercept, surveillance, and other missions; and d) identification and
   facilitating the response to suspicious aircraft.

3. The above support for drug control efforts are integral to the daily duties carried out by the
   agency's air traffic controllers, as well as ATO's air traffic security coordinators. This
   operational support is not broken out as separate drug control programs. In many cases, this
   support is provided as routine support to NORAD, or CBP and other LEA partners. The ATO
   personnel involved may not be aware that they are specifically assisting a drug control effort
   versus supporting any other type of defense, homeland security, or law enforcement mission.

ATO's point of contact is Ernest Barber. He can be reached at (202) 385-8499.
